AUDIT OF THE USE OF EQUITABLE SHARING REVENUES BY

         THE CLEVELAND POLICE DEPARTMENT

                 CLEVELAND, OHIO




             U.S. Department of Justice

           Office of the Inspector General

                    Audit Division



            Audit Report GR-50-11-003

                    June 2011

AUDIT OF THE USE OF EQUITABLE SHARING REVENUES BY

         THE CLEVELAND POLICE DEPARTMENT

                 CLEVELAND, OHIO


                             EXECUTIVE SUMMARY


      The U.S. Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit of the use of DOJ equitable sharing
revenues by the Cleveland Police Department (Cleveland PD). Equitable
sharing revenues represent a share of the proceeds from the forfeiture of
assets seized in the course of certain criminal investigations. 1 During the
period of January 1, 2009, through December 31, 2009, the Cleveland PD
was awarded DOJ equitable sharing revenues totaling $256,496 to support
law enforcement operations.

      The objectives of the audit were to assess whether equitably shared
cash and property received by the requesting agency were accounted for
properly and used for allowable purposes as defined by the applicable
regulations and guidelines. We found that the Cleveland PD complied with
equitable sharing guidelines with respect to accounting for equitable sharing
deposits and adhering to non-supplanting requirements. In addition, the
Cleveland PD generally complied with equitable sharing guidelines related to
the tracking and use of funds. However, we identified deficiencies in these
two areas as they relate to the Cleveland PD’s activities associated
specifically with equitable sharing funds used for tuition reimbursement.
Additionally, we found weaknesses related to reporting. Specifically, we
found that the Cleveland PD:

       •	 Did not accurately report interest income or the equitable sharing
          funds it used to fund tuition reimbursement accounts on its Federal
          Sharing Agreement and Certification Form.

       •	 In the accounts set up to fund tuition reimbursement accounts for
          patrolmen and supervisors, commingled DOJ equitable sharing
          financial activity with equitable sharing activity from the U.S.
          Department of the Treasury.


       1
           The DOJ asset forfeiture program has three primary goals: (1) to punish and
deter criminal activity by depriving criminals of property used or acquired through illegal
activities; (2) to enhance cooperation among foreign, federal, state, and local law
enforcement agencies through equitable sharing of assets recovered through this program;
and, as a by-product, (3) to produce revenues to enhance forfeitures and strengthen law
enforcement.
     •	 Used equitable sharing funds to reimburse officers for college
        courses. We questioned some reimbursed courses because they
        were not law enforcement-related. The equitable sharing guidelines
        state that equitable sharing funds shall not be used for non-law
        enforcement classes. As a result we identified questioned costs
        totaling $5,971.

     •	 Did not file its Federal Sharing Agreement and Certification Form in
        a timely manner.

       In total, we identified $5,971 in questioned costs related to the
Cleveland PD’s management of equitable sharing funds. Our report contains
five recommendations that address the weaknesses we identified. Our
findings are discussed in greater detail in the Findings and
Recommendations section of the report. The audit objectives, scope, and
methodology appear in Appendix I.
                                 TABLE OF CONTENTS



INTRODUCTION ................................................................................ 1


Background .........................................................................................1


FINDINGS AND RECOMMENDATIONS................................................ 3


Federal Sharing Agreement and Certification Form....................................3


Accounting for Equitable Sharing Receipts ...............................................4


Use of Equitably Shared Property ...........................................................5


Use of Equitable Sharing Funds ..............................................................5


Supplanting .........................................................................................7


Views of Responsible Officials.................................................................7


Recommendations ................................................................................7


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ................. 9


APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS............ 11


APPENDIX III – AUDITEE RESPONSE.............................................. 12


APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL

              ANALYSIS AND SUMMARY OF ACTIONS
              NECESSARY TO RESOLVE REPORT........................... 14

                             INTRODUCTION

      The U.S. Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit of the use of DOJ equitable sharing
revenues by the Cleveland Police Department (Cleveland PD).

       The audit covered the Cleveland PD’s 2009 fiscal year (FY), specifically
the period of January 1, 2009, through December 31, 2009. During that
period, the Cleveland PD was awarded DOJ equitable sharing revenues
totaling $256,496 to support law enforcement operations.

      The objectives of the audit were to assess whether equitably shared
cash and property received by the requesting agency were accounted for
properly and used for allowable purposes as defined by the applicable
regulations and guidelines.

Background

      The primary mission of the DOJ Asset Forfeiture Program is to employ
asset forfeiture powers in a manner that enhances public safety and
security. This is accomplished by removing the proceeds of crime and other
assets relied upon by criminals and their associates to perpetuate their
criminal activity against our society. Asset forfeiture has the power to
disrupt or dismantle criminal organizations that would continue to function if
we only convicted and incarcerated specific individuals.

       Another purpose of the DOJ Asset Forfeiture Program is to deter crime
by depriving criminals of the profit and proceeds from illegal activities. A
secondary purpose of the program is to enhance cooperation among federal,
state, and local law enforcement agencies by sharing federal forfeiture
proceeds through the DOJ equitable sharing program. State and local law
enforcement agencies may receive equitable sharing revenues by
participating directly with DOJ agencies in joint investigations leading to the
seizure or forfeiture of property. The amount shared with the state and local
law enforcement agencies in joint investigations is based on the degree of
the agencies’ direct participation in the case. The U.S. Department of the
Treasury (Treasury) administers a similar equitable sharing program. Our
audit was limited to equitable sharing revenues received through the DOJ
equitable sharing program.

      Although several DOJ agencies are involved in various aspects of the
seizure, forfeiture, and disposition of equitable sharing revenues, the
DOJ Criminal Division, Asset Forfeiture and Money Laundering Section
(AFMLS), is responsible for issuing policy statements, implementing
governing legislation, and monitoring the use of DOJ equitable sharing
funds. Generally, the use of equitable sharing revenues by state and local
recipient agencies is limited to law enforcement purposes. However, under
certain circumstances, up to 15 percent of equitable sharing revenues may
be used for the costs associated with drug abuse treatment, drug and crime
prevention education, housing and job skills programs, or other nonprofit
community-based programs or activities. This provision requires that all
expenditures be made by the law enforcement agency and does not allow for
the transfer of cash.

      The Cleveland PD is located in Cleveland, Ohio, which is one of the
largest cities in the state. The Cleveland PD’s law enforcement budgets were
$174,350,550 in FY 2007; $176,123,960 in FY 2008; and $177,992,105 in
FY 2009.




                                   -2­
               FINDINGS AND RECOMMENDATIONS

      We found that the Cleveland PD complied with equitable sharing
      guidelines with respect to accounting for equitable sharing
      deposits and adhering to non-supplanting requirements. In
      addition, the Cleveland PD generally complied with equitable
      sharing guidelines related to the tracking and use of funds.
      However, we identified deficiencies in these two areas as they
      relate to the Cleveland PD’s activities associated specifically with
      equitable sharing funds used for tuition reimbursement. We
      identified $5,971 in questioned costs associated with
      reimbursements for college courses that were not specifically
      related to law enforcement, as required by Equitable Sharing
      guidelines. Additionally, we found that the Cleveland PD
      comingled a portion of its DOJ equitable sharing funds with
      Treasury Department equitable sharing funds, did not correctly
      report its interest income or the equitable sharing funds it used
      to fund education accounts on its 2009 Federal Sharing
      Agreement and Certification Form, and filed its 2009 Federal
      Sharing Agreement and Certification Form late.

Federal Sharing Agreement and Certification Form

       The AFMLS requires that any state or local law enforcement agency
that receives forfeited cash, property, or proceeds as a result of a federal
forfeiture submit a Federal Sharing Agreement and Certification Form. The
submission of this form is a prerequisite for the approval of any equitable
sharing request. Noncompliance may result in the denial of the agency’s
sharing request.

      The Federal Sharing Agreement and Certification Form must be
submitted every year within 60 days after the end of the agency’s fiscal year
regardless of whether funds were received or maintained during the fiscal
year. The agreement must be signed by the head of the law enforcement
agency and a designated official of the local governing body. By signing the
agreement, the signatories agree to be bound by the statutes and guidelines
that regulate the equitable sharing program and certify that the law
enforcement agency will comply with these guidelines and statutes.

       We tested compliance with the Federal Sharing Agreement and Annual
Certification Form requirements to determine if the required form for 2009
was submitted and was complete, accurate, timely, and signed by the
appropriate officials. We determined that while the form for FY 2009 was


                                      -3­
complete and signed by the appropriate officials, it was submitted more than
5 months late. Additionally, we found that the interest income reported on
the form was inaccurate. We determined this occurred because the city of
Cleveland, which maintains the accounting records for the Cleveland PD,
made errors in the posting of interest income. We found that sometime
between January and April 2009 the city recorded in its accounting records
the interest income it earned in 2007 and 2008. This interest income should
have been posted at the time it was earned and because it was posted in an
untimely manner, the accounting records reflected an overstated amount for
interest earned. As a result, the interest income reported on the Annual
Certification Report for 2009 was incorrect. In addition, we found that, at
the time of the audit, no interest income earned in 2009 had been posted to
the accounting records.

       We also found that the Cleveland PD had two education accounts that
it funded with equitable sharing receipts. However, the activity from these
accounts was not reported on the Federal Sharing Agreement and
Certification Form for 2009.

Accounting for Equitable Sharing Receipts

      Both A Guide to Equitable Sharing of Federally Forfeited Property for
State and Local Law Enforcement Agencies, dated March 1994,
(1994 Equitable Sharing Guide) and the Guide to Equitable Sharing for State
and Local Law Enforcement Agencies, dated April 2009 (2009 Equitable
Sharing Guide), require that all participating state and local law enforcement
agencies implement standard accounting procedures to track equitably
shared revenues and property. 2 Additionally, DOJ equitable sharing funds
must be accounted for separately from any other funds. We reviewed
procedures for reconciling equitable sharing requests against sharing
receipts, reconciled the agency’s accounting records to DOJ records of
equitable sharing funds shared with the agency, and reviewed equitable
sharing receipts to determine if the funds were properly accounted for and
deposited.

      We determined that the Cleveland PD had 25 receipts of equitable
sharing funds totaling $256,496 during FY 2009. We reviewed all
25 receipts, and we found that the Cleveland PD accurately accounted for all
equitably shared revenues received during FY 2009.



       2
         The 1994 Equitable Sharing Guide was updated and a new guide issued in
April 2009. We reviewed the Cleveland PD’s equitable sharing activities during the entirety
of calendar year 2009, and thus both guides are applicable to this audit.


                                           -4­
       According to the Equitable Sharing Guides, the agency receiving
equitable sharing funds is required to maintain separate accounting records
for DOJ equitable sharing funds. We found that the Cleveland PD had
comingled a portion of its DOJ equitable sharing funds and U.S. Treasury
equitable sharing funds in its accounting records and could not separately
identify them as DOJ or Treasury monies. Specifically, the Cleveland PD had
set up accounts to reimburse officers who took college classes. 3 However,
the Cleveland PD maintained both DOJ and Treasury equitable sharing funds
in these accounts without separately accounting for the different sources of
funding.

Use of Equitably Shared Property

      Both Equitable Sharing Guides also require that any forfeited tangible
property transferred to a state or local agency for official use must be used
for law enforcement purposes only. Further, vehicles and other tangible
property transferred for official law enforcement use must be used
accordingly for at least 2 years. However, if the property becomes
unsuitable for such stated purposes before the end of the 2-year period, it
may be sold. During FY 2009, the Cleveland PD did not receive any forfeited
tangible property.

Use of Equitable Sharing Funds

      Generally, both Guides require that the use of equitable sharing funds
received by state and local agencies be limited to law enforcement purposes.
However, under certain circumstances, up to 15 percent of equitable sharing
revenues may be used for the costs associated with nonprofit community-
based programs or activities, such as drug abuse treatment, drug and crime
prevention education, and housing and job skills programs. Law
enforcement agencies can transfer cash to another law enforcement agency.

      During FY 2009, the Cleveland PD expended $575,036 in
DOJ equitable sharing revenues. We judgmentally selected and tested
49 transactions, totaling $443,269, to determine if the expenditures of DOJ
equitable sharing funds were allowable and supported by adequate
documentation. We determined that in general, transactions were supported
by adequate documentation, items were used for law enforcement purposes,
and the expenditures were allowable and in accordance with the guidelines.


      3
         According to an agreement between the Cleveland PD and its employee union, the
Cleveland PD set aside 4 percent of its DOJ equitable sharing funds for tuition
reimbursement and equally divided those funds into two accounts - one account for
supervisors and a separate account for patrolmen.


                                         -5­
       However, we identified an issue related to the Cleveland PD’s
aforementioned practice of using equitable sharing funds to reimburse
employees for college coursework. According to the Equitable Sharing
Guide, equitable sharing funds can be used for law enforcement training that
is intended to result in further seizures and forfeitures. Further, the training
of law enforcement support personnel is permitted in any area that is
necessary to perform official law enforcement duties.

      We found that in FY 2009 the Cleveland PD expended $35,385 in
equitable sharing funds to reimburse its employees for courses taken at local
colleges and universities. Of this total amount, we initially identified $9,961
in equitable sharing funds used to reimburse officers for classes not related
to law enforcement activities. A listing of these courses and their associated
costs is found in the following table.

                Initial List of Non-Law Enforcement-Related

                    Classes Paid for by the Cleveland PD

                        Using Equitable Sharing Funds

                Class 4
                                                     Amount
                Principles of Economics I                          1,632.00
                English 1020                                         241.62
                English 1010                                         241.62
                Psychology of Motivation                           1,320.00
                Business Strategies                                  322.16
                Principles of Economics II                         2,176.00
                Foundation Quantitative Literacy                     230.00
                Principles of Microeconomics                         322.16
                Beginning Algebra                                    322.16
                Contemporary Urban Studies                         1,350.00
                Religion 2050                                        241.62
                CHN 201                                            1,320.00
                Office Management                                    241.62
                Total                                            $9,960.96
               Source: Cleveland Police Department records

       According to documentation provided to support these expenditures,
the Cleveland PD approved these courses because the officers were working
towards college degrees. In previous correspondence with the OIG, the
AFMLS advised that equitable sharing funds may not be used for general
tuition reimbursement, but may be used to pay tuition for law enforcement
courses.


       4
           At the time of our audit, the Cleveland PD was unable to provide us with the full
title of one course, “CHN 201.”


                                            -6­
      Based on the Cleveland PD’s response to the draft report, we
requested and were provided additional documentation to support the
Cleveland PD’s justification for using equitable sharing funds to pay for some
of the classes that we initially questioned. Based on our additional review,
we determined that Psychology of Motivation ($1,320), Contemporary Urban
Studies ($1,350), and CHN 201 (a Chinese language course costing $1,320)
were allowable. After deducting the costs associated with these courses, we
are questioning as unallowable a total of $5,971 used for non-law
enforcement college courses.

Supplanting

      Pursuant to both the 1994 and 2009 Equitable Sharing Guides,
equitable sharing revenues must be used to increase or supplement the
resources of the receiving state or local law enforcement agency. Equitably
shared funds shall not be used to replace or supplant the resources of the
recipient. To test whether equitable sharing funds were used to supplement
rather than supplant local funding, we interviewed a local official and
reviewed the agency’s local budgets for FYs 2007, 2008, and 2009.

      Based on the results of our interview and our review of the city of
Cleveland’s budget documents, we did not find any indications that the
Cleveland PD was using equitable sharing funds to supplant local funding.
Overall funding for the Cleveland PD increased from $174.3 million in
FY 2007 to $177.9 million in FY 2009.

Views of Responsible Officials

      We discussed the results of our review with Cleveland PD officials
throughout the audit and at a formal exit conference. Their input on specific
issues has been included in the appropriate sections of the report.

Recommendations

      We recommend that the Criminal Division:

      1. Direct the Cleveland PD to establish procedures to ensure that
         Equitable Sharing Agreements and Certifications are filed in a
         timely manner.

      2. Ensure that the Cleveland PD accurately records and reports
         interest income and other activity.




                                    -7­
3. Direct the Cleveland PD to file a corrected Equitable Sharing
   Agreement and Certification Report for 2009.

4. Direct the Cleveland PD to separately account for DOJ and Treasury
   equitable sharing funds and correct the DOJ accounting records for
   equitable sharing in order to accurately support the financial activity
   reported on the 2009 Equitable Sharing Agreement and Certification
   report.

5. Require that the Cleveland PD remedy the $5,971 in questioned
   costs related to non-law enforcement-related college courses taken
   by Cleveland PD personnel.




                               -8­
                                                                 APPENDIX I



           OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      The objectives of the audit were to assess whether equitably shared
cash and property received by the requesting agency were accounted for
properly and used for allowable purposes as defined by the applicable
regulations and guidelines. We tested compliance with what we considered
to be the most important conditions of the DOJ equitable sharing program.
We reviewed laws, regulations, and guidelines governing the accounting for
and use of DOJ equitable sharing receipts, including:

      •	 A Guide to Equitable Sharing of Federally Forfeited Property for
         State and Local Law Enforcement Agencies, dated March 1994;

      •	 Addendum to A Guide to Equitable Sharing of Federally Forfeited
         Property for State and Local Law Enforcement Agencies, dated
         March 1998; and

      •	 Guide to Equitable Sharing for State and Local Law Enforcement
         Agencies, dated April 2009.

      Unless otherwise stated in our report, the criteria we audit against are
contained in these documents.

Scope and Methodology

       Our audit concentrated on, but was not limited to, equitable sharing
receipts received by the Cleveland PD from January 1, 2009, through
December 31, 2009. We performed audit work mainly at Cleveland PD
headquarters located in Cleveland, Ohio. We interviewed Cleveland PD
officials and examined records of federal asset forfeiture revenues and
expenditures of DOJ equitable sharing revenues and property received by
the Cleveland PD.

      During FY 2008, there were 25 receipts totaling $256,496, and we
tested all of them. During FY 2009, there were 80 disbursements totaling
$575,036. We selected 49 disbursements, totaling $443,269, for testing.


                                     -9­
      Judgmental sampling design was applied to obtain broad exposure to
numerous facets of the disbursements reviewed, such as dollar amounts and
cost categories. This non-statistical sample design does not allow projection
of the test results to all disbursements.

      We relied on computer-generated data contained in the DOJ
Consolidated Asset Tracking System (CATS) for determining equitably
shared revenues and property awarded to the Cleveland PD during the audit
period. We did not establish the reliability of the data contained in the CATS
system as a whole. However, when the data used is viewed in context with
other available evidence, we believe the opinions, conclusions, and
recommendations included in this report are valid.

      In planning and performing our audit, we considered internal controls
established and used by the Cleveland PD over DOJ equitable sharing
receipts to accomplish our audit objectives. We did not assess the reliability
of the Cleveland PD financial management system or internal controls of that
system or otherwise assess internal controls and compliance with laws and
regulations for the city of Cleveland as a whole.

      Our audit included an evaluation of the Cleveland PD, a unit of the city
of Cleveland, which was included in a citywide audit conducted by The
Auditor of State’s Office. The results of this audit were reported in the
Single Audit Report that accompanied the Comprehensive Annual Financial
Report for the year ended December 31, 2008. The Single Audit Report was
prepared under the provisions of Office of Management and Budget Circular
A-133. We reviewed the independent auditor’s assessment, which disclosed
no control weaknesses or significant noncompliance issues related
specifically to the Cleveland PD.




                                    - 10 ­
                                                                         APPENDIX II



            SCHEDULE OF DOLLAR-RELATED FINDINGS



QUESTIONED COSTS                                                     AMOUNT         PAGE



Unallowable Expenditures                                                 5,971          7



                    TOTAL QUESTIONED COSTS                             $5,971



         TOTAL DOLLAR-RELATED FINDINGS                                 $5,971




____________________

Questioned Costs are expenditures that do not comply with legal, regulatory, or contractual
requirements, or are not supported by adequate documentation at the time of the audit, or
are unnecessary or unreasonable. Questioned costs may be remedied by offset, waiver,
recovery of funds, or the provision of supporting documentation.




                                         - 11 ­
                                                                                           APPENDIX III



                                      AUDITEE RESPONSE





          city of Cleveland
          kin\,; G. ~ MIyor
          ~ at PwlIIic SIIeIJ
          00.-. at "'*'e
          ~ MeG<1IIh. ChoeI
          llOO 0ruriD SIrftI
          CJto.eIond, Cho 4<11 , }. 1643
          216/62l-500S ' ' ' ' 216/623-5584
                                                     Apri120,2011

Carol S. Taraszka
Regional Audit Manager
U.S. Department of Justice
Officc of the Inspector General
Chicago Regional Audit Office
500 West Madison Street, Suite 1121
Chicago, Illinois 60661

Dear Ms. Taraszka:

   The Cleveland Division of Police (CPO) has reviewed the draft audit repon on the Use of
Equilable Sharing Fund. involving our Division for the year 2009. The audit concluded that CPO
substanlively complied with the equitable sharing revenue reporting. However, some weaknesses
were identi fied. The Division has analyzed the weaknesses and offers the following response
and/or appeals.

Recommendations:
   l. ['Iablisb procedures to eMUte tbat Equitable Sharing Agreements Ind Certlfiution,
      are filed In I timely manner:
       Response: The Division of Police will establish procedures to ensure thai reports are filed in
       a timely manner by analyzing and addressing issues quarterly related to reconciling the fmal
       «port.

   Z. Ensure that th e Clnoeland Division of Police accurately records and reports intern.
      income and otb er activity.

       Response: The Cleveland Division of Police wi ll ensure that interest reports will be
       accurately reported by setting up separate interest reports for the Justice Department and the
       Treasury Depanment.

   3. DirKt tbe C lenJand Dlvasion of Police to file a cOrTeded Eq uitab le Sharing Agreement
       and Certification Report (or 1009.

       Response: The Cleveland Division of Police will ftle a corrected report after receiving a
       final determination (or recommendation liS.
   4. Dirut the C levehmd Divi!ion o( Police to separately account (or DOJ and Treasury
      eq uitable .hlr ln g rund! and cOl"rtd tb e DOJ acc ounting records (or equitable sha ring
      in order to acc urately support tbe financial activity reported on the 2009 Equitable
      Shllrlng Agreement and Certifi cation r eport.
       Response: The Cleveland Division of Police win create two new accounts in Treasury for
       the two different labor unions and win reconcile the accounting records once the accounts
       are established.
         An Equal   ~            (tftpIoya




                                               - 12 ­
    5. Require that the Clenland DWiJion of Police remedy tbe S9,961.00 In unallowable
         costs related to non-law enforcement-related college counes taken by CPD penonDel.
    Response: In our own review of the reimbursed classes, we find that several classes have a
direct benefit and correlation to the perConnance of an officer's official duties. For example: a
police officer's ability to sharply conununicate thoughts and recount events in writing is an
absolutely essential core policing skill. The skills necessary to effect the proper use of force pales
in comparison to the skills necessary to articulate the justification oCthe application of that fo~. It
is because of the intense scrutiny that police officers' written reports receive that ....'C encourage: any
coursework that hones an officer's reading and writing skills.            'The Englisb Courses that were
reimbursed ....'Cre classes in the study of and practices in principles of good writing with emphasis on
reading comprehension and analyticaJ writing. Other classes that were reimbursed that on their face
appear to be non-law enforcement related were Chinese language classes. The police supervisor
who took these classes works in a district where the majority of our Chinese population resides in
Cleveland. Learning their language and culture only enhances the Division of Police's ability to
interact with a culture that is hesitant to call the police due to culture barriers. 10 fact, we cite this as
an example (as part of a separate DOJ inquiry) as proof of our efforts to increase our accessibility to
Limited English Proficiency (LEP) persons. A final example is the reimbursement of a class
entitled Office Management.          A supervisor who is in charge of an office attended this class.
Managing an office and its staff, managing work flow, dealing with human resource dynamics are
an integral part of the daily duties of any supervisor tasked with running an office. In addition,
classes such as Contemporary Urban IssUC! and Psychology of Motivation fall well within career
related guidelines. as we believe that such classes suppon our cenual mission of w:xIc:rstanding and
relating to our core constituency and creating a work force that can carry out that mission.

    Regarding other classes that were reimbursed. members take these classes in preparation for
future specialized assignments such as Financial Crimes. While a History course on Scandinavian
rulers is not law enfo~ment related, another course on the History of Civil Rights in the US very
well should be. The same can be said for certain Sociology classes. Also, as we maintain a full
time Police Academy, we want to encourage our current and future instructors to take Education
related college courses. While it would be easier to simply adhere to bright line rules on what
constitute! a law enforcement related class, we wish to maintain the fl exibility necessary to create
and maintain the best and brightest officers thaI we can.

    As our only intent in approving these classes was to adhere to our goal of continually improving
our workforce; the Cleveland Division of Police requests a waiver for reimbursing the costs of the
classes in question. The classes were approved in good faith based on the highest ideals of policing
and service 10 our communiI)'.
    Be that as it may, CPO stands ready to review and revise our General Police Order concerning
tuition reimbursement as necessary. The Cleveland Division of Police wants to thank you for your
assistance and guidance. We strive for continual improvement and v.'C look forward to working
with you to make us an even beller organization.

                                                         Sincerely,

                                                         /J:kb..f/Jtr~~
                                                         Michael McGrath, Chief
                                                         Division of Police

cc; u.s. Dcpwunml of JuJtke, CrirniNJ Division
    Martin L Fluk, DireclOf,l'ublic Safety
    File




                                                  - 13 ­
                                                            APPENDIX IV



              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO RESOLVE REPORT


      The Department of Justice Office of the Inspector General (OIG)
provided a draft of this audit report to the Criminal Division and the
Cleveland Police Department. We incorporated the Cleveland Police
Department’s response as Appendix III of this final report. However, the
audit recommendations are unresolved because the Criminal Division
declined to provide comments on the draft report. The following provides
the OIG analysis of the Cleveland Police Department’s response and a
summary of actions necessary to resolve each report recommendation.

Recommendation Number

1.	   Unresolved. The Cleveland Police Department concurred with our
      recommendation to ensure that Equitable Sharing Agreements and
      Certifications are filed in a timely manner.

      However, this recommendation is unresolved because the Criminal
      Division did not respond to the draft report. This recommendation can
      be resolved once the OIG and the Criminal Division reach agreement
      on corrective action planned to address the recommendation.

2.	   Unresolved. The Cleveland Police Department concurred with our
      recommendation to ensure that it accurately records and reports
      interest income and other activity.

      However, this recommendation is unresolved because the Criminal
      Division did not respond to the draft report. This recommendation can
      be resolved once the OIG and the Criminal Division reach agreement
      on corrective action planned to address the recommendation.

3.	   Unresolved. The Cleveland Police Department concurred with our
      recommendation to file a corrected Equitable Sharing Agreement and
      Certification Report for 2009.

      However, this recommendation is unresolved because the Criminal
      Division did not respond to the draft report. This recommendation can
      be resolved once the OIG and the Criminal Division reach agreement
      on corrective action planned to address the recommendation.




                                   - 14 ­
4.	     Unresolved. The Cleveland Police Department concurred with our
        recommendation to separately account for DOJ and Treasury
        Department equitable sharing funds and correct the DOJ accounting
        records for equitable sharing in order to accurately support the
        financial activity reported on the 2009 Equitable Sharing Agreement
        and Certification Form. The Cleveland Police Department stated that it
        will create two new accounts for the two different labor unions and will
        reconcile the accounting records once the accounts are established.

        However, this recommendation is unresolved because the Criminal
        Division did not respond to the draft report. This recommendation can
        be resolved once the OIG and the Criminal Division reach agreement
        on corrective action planned to address the recommendation.

      5. Unresolved. The Cleveland Police Department addressed our
         recommendation to remedy the questioned costs associated with
         reimbursement to officers for college courses that we identified as
         unallowable because they did not appear to be law-enforcement
         related, as required by the guidelines governing the equitable sharing
         program. The Cleveland Police Department asserted that several of
         the questioned classes have a direct benefit to the performance of an
         officer’s official duties.

        As noted in our report, we questioned certain classes because they did
        not appear to be law enforcement-related. Equitable sharing
        guidelines state that funds can be used for the training of officers in
        any area that is necessary to perform official law enforcement duties.
        The guidelines go on to say that priority should be given to providing
        training in areas such as asset forfeiture, ethics, due process, and use
        of computers and other equipment in support of law enforcement
        duties. We continue to believe that courses such as Economics,
        Algebra, and Office Management do not represent areas necessary to
        perform law enforcement duties.

        However, based on the Cleveland PD’s response, we requested and
        were provided additional documentation relating to this issue. Based
        upon this documentation and an additional review of the classes
        questioned, we have revised our list of questioned costs related to
        reimbursement for non-law enforcement-related classes and updated
        the body of the report to reflect the additional work performed. The
        revised list of questioned classes can be found in the following table.




                                      - 15 ­
          Revised List of Non-Law Enforcement-

         Related Classes Paid for by Cleveland PD

                 Equitable Sharing Funds

       Class                                Amount
       Principles of Economics I               1,632.00
       English 1020                              241.62
       English 1010                              241.62
       Business Strategies                       322.16
       Principles of Economics II              2,176.00
       Foundation Quantitative Literacy          230.00
       Principles of Microeconomics              322.16
       Beginning Algebra                         322.16
       Religion 2050                             241.62
       Office Management                         241.62
       Total                                 $5,970.96

This recommendation is unresolved because the Criminal Division did
not respond to the draft report. This recommendation can be resolved
once the OIG and the Criminal Division reach agreement on corrective
action planned to address the recommendation.




                              - 16 ­
